Cumulative Quarterly ARRA Update (Sheet 1 of 2) Version 1.0
        Reporting OIG: Department of Transportation - OIG
    Reporting Period : Quarter 2, FY 2014 (January 1 - March 31, 2013)


                 Monetary Results ($)                         Fiscal Years 2009-2013           Fiscal Year 2014 Period-to-Date        Cumulative Since Fiscal Year 2009

Recoveries                                                                   $1,299,608.00                          $934,190.00                           $2,233,798.00


Forfeitures/Seizures                                                                   $0.00                        $752,520.00                             $752,520.00


Estimated Savings                                                             $750,000.00                                                                   $750,000.00


Questioned Costs                                                                       $0.00                                                                       $0.00


Unsupported Costs                                                                      $0.00                                                                       $0.00


Recommendations for Better Use of Funds                                                $0.00                                                                       $0.00



                    Work Products                             Fiscal Years 2009-2013           Fiscal Year 2014 Period-to-Date             Cumulative Since 2009

Complaints Received                                                                     485                                       3                                  488


Whistleblower Reprisal Allegations


 Received                                                                                12                                       1                                   13


 Accepted                                                                                12                                                                           12


Investigations


 Active - Open and Underway                                                              55                                      47


 Convictions, Settlements, Judgments                                                      7                                       1                                       8


 ARRA $ Loss Associated with Convictions and Other
                                                                              $1,299,608.00                          $934,190.00                           $2,233,798.00
 Prosecutive Actions


Audits/Inspections/Evaluations/Reviews


 In Process - Initiated and Underway                                                      4                                       1


 Completed Final Published Work Products                                                 29                                       2                                   31


 Completed Unpublished Work Products                                                      0                                                                               0


 Quality Control Reviews (QCRs) Issued                                                    0                                                                               0


Training/Outreach Sessions Provided                                                     486                                                                          486
Cumulative Quarterly ARRA Update (Sheet 1 of 2) Version 1.0
    Reporting OIG: Department of Transportation - OIG

  Reporting Period Quarter 2, FY 2014 (January 1 - March 31, 2013)




      No.                              DETAILS OF SIGNIFICANT ACTIVITIES (Completed/On-Going During the Reporting Period)




       1



       2



       3



       4



       5



       6



       7



       8



       9



       10
